No..

IN THE SUPREME COURT OF THE UNITED
STATES
JAMES LEONARD HINES,
PETITIONER,
v.
REGIONS BANK,
f.k.a. Union Planters Bank, N.A..
RESPONDENT.

On Appeal from the United States Court of
Appeals For the Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI
James L. Hines
Pro Se for Petitioner
203 Willowchase Dr.
Scottsboro, Alabama 35769
(256) 599-6689
jimhinesl23@msn.com

RECEIVED
MAR 1 7 2020
lEFp'RC|M°EFCT0H|^f,%K

QUESTIONS PRESENTED
This case is predicated on the due process of law in a summons and
complaint, as to whether it was properly served on the defendant. The questions
presented are:
1. Was the precedent established by the U. S. Supreme Court in summons
and complaint followed in the lower courts’ decisions.
2. Did the summons and complaint served by Plaintiff provide adequate notice
under due process of law for defendant to answer the complaint as required by
Federal Rules of Civil Procedure Rule 12(a).
3. Is mere form of service sufficient to deny that notice of complaint under due
process of law was served on defendant.
4. Was the district court correct in denying plaintiffs request for default
judgment when the defendant did not answer die complaint in the period of time
allowed by Rule 12(a) of Federal Rules of Civil Procedure.
5. Is defendant deemed to have waived any objection to personal jurisdiction or
service of process if the defendant makes a pre-answer motion under Rule 12 and
fails to include such objections in that motion.
6. Did the district court abuse its discretion and make an error of law when it
dismissed plaintiffs complaints refusing to grant default judgment when
defendant failed to answer the complaint under Rule 12(a).
i

7. Did plaintiff state a claim on which relief may be granted.
8. Was defendant’s motion to transfer the case to the federal district court
evidence that it had received notice of the summons and complaint of plaintiff?

PARTIES TO THE PROCEEDINGS
The caption of the case names all the parties to the proceedings in the court
below.

ii

TAABLE OF CONTENTS
PAGE
• ••
1,11

QUESTIONS PRESENTED
PARTIES TO THE PROCEEDINGS

ii

TABLE OF CONTENTS

m

TABLE OF AUTHORITIES

IV

PETITION FOR WRIT OF CERTIORARI

v

OPINIONS AND ORDERS BELOW.

vi

STATEMENT OF JURISDICTION,

vu

CONSTITUTIONAL AND STATUTORY PROVISONS INVOLVED

viii

STATEMENT

1,2

REASONS FOR GRANTING THE PETITION

3,4,5

CONCLUSION,

5,6

APPENDIX....

iii

i

TABLE OF AUTHORITIES
PAGE

CASES
Kerah v. Derozier, 951 /f,2d 1509, 1512 (5th Cir. 1988)

4

Miliken v. Meyer, 311 U. S. 457

3

v, 1,3

Simon v. Craft, 182 U.S. 427 (1901)
United Student Aid Funds, Inc. v. Espinosa
(no. 08-1134) 553 F.3d 1193
Wright & A. Miller, Federal Practice and Procedure
1391, at 852-53 (1969)

iv

v, 3

4

PETITION FOR WRIT OF CERTIORARI
Petitioner James Leonard Hines respectfully submits this petition for a writ
of certiorari for the court to review the district court and the United States
Court of Appeals decisions when they used improper guidelines and clearly ignored
the direction of the Supreme Court’s precedent established for summons and
complaint in its decisions in United Student Aid Funds, Inc. v. Eapinosa (no. 081134) 553 F. 3d 1193 and Simon v. Craft, 182 U.A. 427 (1901).

1

OPINIONS AND ORDERS BELOW
A copy of the Order of the United States District Court for the Northern
District of Alabama Northeastern Division, plaintiffs notice for and motion for
reconsideration of final order, unpublished opinion of the court of appeals,
plaintiffs notice and motion for reconsideration of the order are included in the
appendix

2

STATEMENT OF JURISDICTION
The opinion and judgement of the United States Court of Appeals was
entered on the 29th day of July, 2019. Plaintiffs notice and motion for
reconsideration of the order was filed on the 12th day of August, 2019. The court
denied Plaintiffs petition for rehearing on August 28,2019. This petition is
filed within 90 days thereafter. The Court has jurisdiction to grant certiorari under
28 U.S.C. 1254(1).

3

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Alabama Rules of Civil Procedure 4(c)(6)
Federal Rules of Civil Procedure 12(a)
United States Supreme Court precedent established
in summons and complaint
28U.S.C. 1254(1)

\

4

STATEMENT
The district court used the Alabama Rules of Civil Procedure 4 (c)(6) to
determine that the defendant, Regions Bank, was not properly served stating that
Mr. Hines’ attempts at service do not comport with Alabama’s rules. A footnote in
the Memorandum Opinion states that the Federal Rules of Civil Procedure contain
a similar provision. However, the district court clearly ignored the directions of
the United States Supreme Court given in due process of law in this case. The
Court stated that due process of law requires notice “reasonably calculated, under
all circumstances, to appraise interested parties of the pendency of the action and
afford them an opportunity to present their objections.” United student Aid Funds,
Inc. v. Espinosa (No. 08-1134) 553 F. 3d 1193. All of the requirements of this
procedure was executed by plaintiff.
If the district court had used the Supreme Court’s ruling in due process of
summons and complaint, it would have entered a default judgment against Regions
Bank, since the bank did not respond in the allotted time as stated in Federal Rule
12(a). By not responding, the defendant cannot object to any of plaintiff s
assertions in the complaint, and they are therefore acknowledged to be true and
correct.
Since the complaint stated several claims against Regions Bank that have
been determined to be true and correct, it cannot assert the defense of failure to
5

state a claim in this action.

6

REASONS FOR GRANTING THE WRIT
THE COURT SHOULD GRANT CERTIORARI TO DECIDE IF
IMPROPER DUE PROCESS OF LAW WAS USED BY THE
DISTRICT COURT AND APPELLATE COURT.
The central issue under consideration in this action is whether the lower
courts used the proper guidelines to establish due process of summons and
complaint as established by the United States Supreme Court. According to the
Court’s directions in due process of law of summons and complaint requires notice
be “reasonably calculated under all circumstances, to apprise interested parties of
the pendency of the action and afford them an opportunity to present their
objections.” Citing United Student Aidfunds, Inc. v. Espinosa (no. 08-1134) 553
F.3d 1193. The Court further stated in Simon v. Craft, 182 U. S. 427 (1901) that
“the due process clause in die Fourteenth Amendment to the Constitution does not
necessitate that the proceedings in a state court should be by particular mode, but
that there shall be regular course of proceedings, in which notice is given of the
claim asserted and an opportunity afforded to defend against it.” An elementary
and fundamental requirement of due process in any proceeding which is to be
accorded finality is notice reasonably calculated, under all circumstances, to
appraise interested parties of the pendency of the action and afford them an
opportunity to present their objections. Miliken v. Meyer, 311 U.S. 457. Plaintiff
avers that due process was served as evidenced by die lack of any returned mail to
7

the moling address of Regions Bank and to their attorney of record. Further
evidence can be established by defendant filing a motion to transfer the case to
federal district court. How could defendant have known of the complaint if it had
not received service of the complaint?
If the district court and the U.S. Court of Appeals had used the United States
Supreme Court’ s ruling in due process of law in a summons and complaint it
would have entered a default judgment against Regions Bank, since the bank did
not respond in the allotted time as prescribed in Federal Rule 12(a). And, since the
defendant did not respond to the complaint of plaintiff, the defendant cannot object
to any of plaintiff1 s assertions in the complaint, and they are therefore to be
acknowledged as true and correct, thereby establishing die claims of plaintiff.
A party is deemed to have waived any objection to personal jurisdiction or
service of process if the party makes a pre-answer motion under Rule 12 and fails
to include such objections in that motion. See Wright & A. Miller, Federal Practice
and Procedure Sec. 1391, at 852-53 (1969). Therefore, the defendant, Regions
Bank, failed to raise its personal-jurisdiction and service-of-process objections in
its pre-answer motion to dismiss. It waived any objections that it might have had
to the court’s exercise of personal-jurisdiction and service-of- process. See Kerah
v. Derozier, 951 F.2d 1509, 1512 (5th Cir. 1988). Only in its motion to remove the
case to district court did die defendant mention that it had no record of receiving

the summons and complaint, however no objection was filed in that motion. It is
certain from the language of the motion that it was aware of the complaint or why
else would it have filed an action to remove it to the district court? From this
action, defendant was certainly aware of the complaint but tried to rely on a

(

procedural error to justify its position for not filing an answer to deny the
complaint.
CONSCLUSSION

The real issue in this appeal is due process of law of summons and
complaint; not that the other issues are unimportant but if die district court and
appellate court would have followed the precedent established by the United States
Supreme Court regarding due process of law in summons and complaint this
appeal would not be necessary. This Court is very clear as to what is required to
fulfill the duties of plaintiff when filing a complaint against a defendant. The
essential elements of due process of law are notice and an opportunity to defend,
and in determining whether such rights are denied, the court is governed by the
substance of things and not by mere form. The majority of courts are correct that
the due process clause does not require “heroic efforts” to ensure actual notice.
The moral is that a party who received actual notice but is not vigilant cannot
depend upon a claimed denial of due process to reclaim its rights. In this case
Regions Bank was served with the summons and complaint by mailing it to the
9

address listed for die bank to receive mail and, as an added precaution, it was
mailed to the attorney of record for the bank and could have timely filed an
objection to the claim.
Plaintiff, James Leonard Hines, avers that the only thing left for the Court to
do is grant a default judgment against the defendant, Regions Bank, and determine
the compensation that is due to him from the bank.
Respectfully Submitted fids 15th day of November, 2019.
//

4

^1a

James Leonard Hines
203 Willowchase Dr.
Scottsboro, Alabama 35769
(256) 599-6689
jimhinesl23@msn.com
Pro Se for Plaintiff/Appellant

10

